<html>
<title> - REPORT OF THE NATIONAL READING PANEL</title>
<body><pre>[Senate Hearing 106-897]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-897

                  REPORT OF THE NATIONAL READING PANEL

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     APRIL 13, 2000--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-481 cc                   WASHINGTON : 2001

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402




                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             FRANK R. LAUTENBERG, New Jersey
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
JON KYL, Arizona
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
JUDD GREGG, New Hampshire            DANIEL K. INOUYE, Hawaii
LARRY CRAIG, Idaho                   HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          HERB KOHL, Wisconsin
TED STEVENS, Alaska                  PATTY MURRAY, Washington
JON KYL, Arizona                     DIANNE FEINSTEIN, California
                                     ROBERT C. BYRD, West Virginia
                                       (Ex officio)

                           Professional Staff

                            Bettilou Taylor
                             Mary Dietrich
                              Jim Sourwine
                        Ellen Murray (Minority)

                         Administrative Support

                             Kevin Johnson
                       Carole Geagley (Minority)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Thad Cochran........................     1
Statement of Duane Alexander, M.D., Director, National Institute 
  of Child Health and Human Development, National Institutes of 
  Health, Department of Health and Human Services................     9
    Prepared statement...........................................    11
Statement of Dr. C. Kent McGuire, Assistant Secretary, Office of 
  Educational Research and Development, Department of Education..    12
    Prepared statement...........................................    12
Statement of Dr. Donald N. Langenberg, chairman, National Reading
  Panel..........................................................    13
    Prepared statement...........................................    17
  

 
                  REPORT OF THE NATIONAL READING PANEL

                              ----------                              


                        THURSDAY, APRIL 13, 2000

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Thad Cochran presiding.
    Present: Senator Cochran.


               OPENING STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. This subcommittee will please come to 
order.
    I want to welcome everyone here this morning to this 
hearing of the Appropriations Subcommittee on Labor, Health and 
Human Services, and Education. This subcommittee is chaired by 
Senator Arlen Specter of Pennsylvania. He has authorized this 
hearing to be conducted this morning to receive the report of 
the National Reading Panel.
    The Panel was created after legislation was introduced in 
1997 by me, entitled ``The Successful Reading Research and 
Instruction Act.'' After the legislation was introduced, our 
Appropriations subcommittee included language in its report for 
the fiscal year 1998 funding bill, calling on the National 
Institute of Child Health and Human Development, and the 
Department of Education to form a panel to evaluate research on 
teaching of reading to children, identify proven methodologies, 
and suggest ways for dissemination of this information to 
teachers, parents, universities, and others.
    It was clear to me that we did not really have a clear 
idea, or understand how children should be taught to read. 
Statistics showed us that 40 to 60 percent of elementary 
students were not reading proficiently, but there was no 
strategy or plan in place to help deal with that problem.
    We learned that the Health Research Extension Act of 1985 
had mandated research on why children have difficulties 
learning to read. The National Institute of Child Health and 
Human Development had conducted this research. And in 1997, 
they had come up with answers.
    Congress had not asked for the results, and the information 
was literally hidden away in the academic and research world. 
As a matter of fact, at a hearing reviewing the budget request 
for the Department of Education that year, I asked the 
Secretary of Education if he had heard about the research or if 
his Department had anyone looking at this research that had 
been done by one of the national institutes of health. And he 
said he had not, but he would have somebody look into it.
    That sort of gave us the story on whether or not research 
that had been done, that was maybe the best that had ever been 
done, was not being analyzed, and there was no plan to use the 
research to translate it into new methods of teaching or 
diagnostic procedures for identifying problems of reading among 
young children.
    Today, more people know that reading research does exist, 
but very few have been able to decipher what it means, and to 
translate it into meaningful practice.
    What most parents simply want to know is: How will my child 
learn to read? How can my child be taught to read better? Until 
now, the response has been vague, and the so-called expert or 
research-based methods were in conflict. So, there is a great 
deal of confusion among parents, teachers, and school 
administrators, educators at all levels about improving reading 
skills of children.
    Meanwhile, we have spent nearly $100 million on programs, 
which one researcher described as ``at best, it should not 
hurt.'' Well, it is my hope that the report of this panel which 
we are receiving today will give us guidance in making informed 
decisions on reading issues.
    I commend the efforts of the National Reading Panel, and I 
hope educators will implement the recommendations and use the 
new teaching methods and programs outlined in the report.
    There is also included in this report, I notice, suggestion 
for additional research. And if that comes as a shock after you 
find out that 100,000 research studies have already been done, 
you wonder, ``My goodness. We are going to research this 
problem to death, or until we are all dead.'' But I think they 
make some very interesting points.
    While there has been a lot of research, many studies and 
reports made--and they have analyzed most of them--there is 
still more that we should learn and can learn. And that is part 
of this Panel's report as well.
    For inclusion into the official record of the hearing, we 
will place copies of the introductory remarks with the text of 
the original bill from the Congressional Record, the partial 
transcripts of discussions in the hearings of this subcommittee 
on the subject, and a copy of the appropriations report 
language which authorized the Panel's creation.
    [The information follows:]

          Excerpt From the Congressional Record, June 19, 1997

                                 SENATE

          * * * * * * *
    By Mr. COCHRAN:
    S. 939. A bill to establish a National Panel on Early Reading 
Research and Effective Reading Instruction; to the Committee on Labor 
and Human Resources.
          the successful reading research and instruction act
    Mr. Cochran. Mr. President, today, I am introducing the Successful 
Reading Research and Instruction Act. It establishes a panel that will 
include parents, scientists, and educators to conduct a study of the 
research relevant to reading development and advise the Congress of its 
recommendations for disseminating its findings and instruction 
suggestions to those who would like to have them.
    Reading is the skill students must master to meet life challenges 
in a confident and successful manner. For a child, breaking the code of 
written language not only opens academic opportunities; it is a 
cornerstone to building high self esteem. Both reading and self esteem 
affect the knowledge and experiences that form a child's character and 
future.
    Teaching children to read is the highest priority in education 
today. Many teachers and parents I've talked with are frustrated and 
confused about what method of reading instruction is best. Every 
American should be concerned that 40 to 60 percent of elementary school 
children are not reading proficiently. Even more disturbing is research 
that shows fewer than one child in eight who is failing to read by the 
end of first grade ever catches up to grade level.
    Success in reading is essential if one is to progress socially and 
economically. In fact, most of the federally funded literacy programs 
are targeted to helping adults learn to read because the education 
system failed them, and more than likely, failed them at an early age.
    This indicates that we need to start solving the problem of poor 
readers at the beginning, instead of working backward. It seems to me 
that the first step to finding a solution is to seriously analyze 
sound, rigorous research on the subject.
    Mr. President, at a hearing on April 16, of the Senate 
Appropriations Subcommittee on Labor, Health and Human Services, and 
Education, I brought to the attention of the Secretary of Education, 
Richard Riley, research by the National Institute of Child Health and 
Human Development mandated by the Health Research Extension Act of 
1985, and asked that he use such research in the development of 
federally supported reading programs. This research is ongoing, in a 
collaborative network with multidisciplinary research programs to study 
genetics, brain pathology, developmental process and phonetic 
acquisition. NICHD has spent over $100 million over the past 15 years, 
and has studied approximately ten thousand children.
    On June 11 of this year, when officials from the National 
Institutes of Health came before the same appropriations subcommittee, 
I asked Dr. Duane Alexander, the Director of NICHD, about this study. 
Dr. Alexander's testimony about the research confirmed what I suspect 
most teachers already know--at least 20 percent of children have 
difficulty learning to read. But the research also suggests that 90 to 
95 percent of these can be brought up to average reading level.
    As a result of this research, techniques for early identification 
of those with reading problems and intervention strategies are now 
known. But administrators, teachers, tutors and parents are not aware 
of the key principles of effective reading instruction. The NICHD 
findings underscore the need to do a better job of teacher training, as 
researchers found fewer than 10 percent of teachers actually know how 
to teach reading children who don't learn reading automatically.
    I am surprised that the Department of Education hasn't looked to 
this study and found a way to effectively get the information to 
teachers, schools, parents, and most importantly, teacher colleges.
    What scientists have learned from their studies of reading hasn't 
been passed on to the teachers who are teaching, so parents are telling 
us their kids aren't reading. It is time we put all this experience 
together; come up with suggestions for dealing with the problems and, 
if schools, teachers, parents or higher education institutions want the 
information, let's make it available.
    This is a proposal to develop answers that are based on scientific, 
model based research. I think it can be a helpful beginning for 
successful reading instruction.
    I ask unanimous consent that a copy of Dr. Duane Alexander's 
testimony and a copy of my bill be printed in the Record.
    There being no objection, the material was ordered to be printed in 
the Record, as follows:
                                 S. 939
    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Successful Reading Research and 
Instruction Act''.

SEC. 2. FINDINGS AND PURPOSE.

    (a) Findings.--Congress makes the following findings:
            (1) At least 20 percent, and in some States 50 to 60 
        percent, of children in elementary school cannot read at basic 
        levels. The children cannot read fluently and do not understand 
        what they read.
            (2) Research suggests that the majority of the children, at 
        least 90 to 95 percent, can be brought up to average reading 
        skills if--
                    (A) children at risk for reading failure are 
                identified during the kindergarten and first grade 
                years; and
                    (B) early intervention programs that combine 
                instruction in phonological awareness, phonics, and 
                reading comprehension are provided by well-trained 
                teachers.
            (3) If the early intervention programs described in 
        paragraph (2)(B) are delayed until the children reach 9 years 
        of age (the time that most children are identified), 
        approximately 75 percent of the children will continue to have 
        reading difficulties through high school.
            (4) While older children and adults can be taught to read, 
        the time and expense of doing so is enormous.
    (b) Purpose.--The purposes of this Act are--
            (1) to conduct an assessment of research and knowledge 
        relevant to early reading development, and instruction in early 
        reading, to determine the readiness of the research and 
        knowledge for application in the Nation's classrooms;
            (2) if appropriate, to develop a national strategy for the 
        rapid dissemination of the research and knowledge to teachers 
        and schools throughout the United States as a means of 
        facilitating effective early reading instruction; and
            (3) to develop a plan for additional research regarding 
        early reading development, and instruction in early reading, if 
        the additional research is warranted.

SEC. 3. NATIONAL PANEL.

    (a) In General.--The Secretary of Education, or the Secretary's 
designee, and the Director of the National Institute of Child Health 
and Human Development, or the Director's designee, jointly shall--
            (1) establish a National Panel on Early Reading Research 
        and Effective Reading Instruction;
            (2) establish the membership of the panel in accordance 
        with subsection (b);
            (3) select a chairperson of the panel;
            (4) provide the staff and support necessary for the panel 
        to carry out the panel's duties; and
            (5) prepare and submit to Congress a report regarding the 
        findings and recommendations of the panel.
    (b) Membership.--The panel shall be composed of 15 individuals, who 
are not officers or employees of the Federal Government. The panel 
shall include leading scientists in reading research, representatives 
of colleges of education, reading teachers, educational administrators, 
and parents.
    (c) Duties.--The panel shall--
            (1) conduct a thorough study of the research and knowledge 
        relevant to early reading development, and instruction in early 
        reading, including research described in section 9 of the 
        Health Research Extension Act of 1985 (42 U.S.C. 281 note);
            (2) determine which research findings and what knowledge 
        are available for application in the Nation's classrooms; and
            (3) determine how to disseminate the research findings and 
        knowledge to the Nation's schools and classrooms.
    (d) Termination.--The panel shall terminate 9 months after the date 
of enactment of this Act.
                     Testimony Dr. Duane Alexander
    Thank you Senator Cochran: I think that it is important to point 
out that our intensive research efforts in reading development and 
disorders is motivated to a great extent by our seeing difficulties 
learning to read as not only an educational problem, but also a major 
public health issue. Simply put, if a youngster does not learn to read, 
he or she will simply not likely to make it in life. Our longitudinal 
studies that study children from age five through their high school 
years have shown us how tender these kids are with respect to their own 
response to reading failure. By the end of the first grade, we begin to 
notice substantial decreases in the children's self-esteem, self-
concept, and motivation to learn to read if they have not been able to 
master reading skills and keep up with their age-mates. As we follow 
them through elementary and middle school these problems compound, and 
in many cases very bright youngsters are deprived of the wonders of 
literature, history, science, and mathematics because they can not read 
the grade-level textbooks. By high school, these children's potential 
for entering college has decreased to almost nil, with few choices 
available to them with respect to occupational and vocational 
opportunities.
    In studying approximately 10 thousand children over the past 15 
years, we have learned the following:
    (1) At least 20 percent, and in some states 50 to 60 percent, of 
children in the elementary grades can not read at basic levels. They 
can not read fluently and they do not understand what they read.
    (2) However, the majority of these children--at least 90 to 95 
percent--can be brought up to average reading skills IF:
    (A) children at-risk for reading failure are identified during the 
kindergarten and first grade years and,
    (B) early intervention programs that combine instruction in 
phonological awareness, phonics, and reading comprehension are provided 
by well trained teachers. If we delay intervention until nine-years-of-
age (the time that most children are currently identified), 
approximately 75 percent of the children will continue to have reading 
difficulties through high school. While older children and adults CAN 
be taught to read, the time and expense of doing so is enormous.
    (3) We have learned that phonological awareness--the understanding 
that words are made up of sound segments called phonemes--plans a 
casual role in reading acquisition, and that it is a good predictor 
because it is a foundational ability underlying basic reading skills.
    (4) We have learned how to measure phonological skills as early as 
the beginning of kindergarten with tasks that take only 15 minutes to 
administer--and over the past decade we have refined these tasks so 
that we can predict with 92 percent accuracy who will have difficulties 
learning to read.
    (5) The average cost of assessing each child during kindergarten or 
first grade with the predictive measures is between $15 to $20 
depending upon the skill level of the person conducting the assessment. 
This includes the costs of the assessment materials. If applied on a 
larger scale, these costs may be further decreased.
    (6) We have learned that just as many girls as boys have 
difficulties learning to read. The conventional wisdom has been that 
many more boys than girls have such difficulties.
    Now females should have equal access to screening and intervention 
programs.
    (7) We have begun to understand how genetics are involved in 
learning to read, and this knowledge may ultimately contribute to our 
prevention efforts through assessment of family reading histories.
    (8) We are entering very exciting frontiers in understanding how 
early brain development can provide us a window on how reading 
develops. Likewise, we are conducting studies to help us understand how 
specific teaching methods change reading behavior and how the brain 
changes as reading develops.
    (9) Very importantly, we continue to find that teaching approaches 
that specifically target the development of a combination of 
phonological skills, phonics skills, and reading comprehension skills 
in an integrated format are the most effective ways to improve reading 
abilities.
    At the present time, we have held several meetings with officials 
from the USDOE and have discussed how these findings can be used across 
the two agencies. As an example of this collaboration, NICHD and USDOE 
have been developing a preliminary plan to determine which scientific 
findings are ready for immediate application in the classroom and how 
to best disseminate that information to the Nation's schools and 
teachers.
          * * * * * * *
                                 ______
                                 

 Excerpts From the Fiscal Year 1998 Labor, Health and Human Services, 
 and Education and Related Agencies Appropriations Bill, Senate Report 
                                 105-58

          * * * * * * *
    Reading development and disability.--The Committee is impressed 
with the important accomplishments reported from the NICHD research 
program on reading development and disability, and is eager to have 
this information brought to the attention of educators, policy makers, 
and parents. The Committee recommends that the NICHD work with the 
Department of Education to convene a national panel to assess the 
current status of research-based knowledge, including the effectiveness 
of various approaches to teaching children to read.
    The Committee commends the Institute for its outreach and public 
education efforts which have had a significant impact on the health and 
well-being of our nation's children. The Committee encourages the NICHD 
to expand this effort to include the Institute's research on reading 
development and disability, and to use the expertise of writers, 
teachers, producers, artists, and academics to bring this information 
directly to children through the media.
          * * * * * * *
                                 ______
                                 

Excerpts From the April 16, 1997 Hearing, Subcommitee on Labor, Health 
 and Human Services, and Education, and Related Agencies, Committee on 
                             Appropriations

          * * * * * * *
               Prepared Statement of Senator Thad Cochran
    Mr. Chairman, the administration's proposal that every child in 
America should be able to read well and independently by the end of 
third grade is laudable. We recognize the necessity of basic reading 
skills in order to meet life challenges in a more confident and 
successful manner.
    I am disturbed by the data that suggest at least 40 percent of our 
children are not reading as well as they should by the end of third 
grade. Additionally, research studies show that fewer than one child in 
eight who is failing to read by the end of first grade ever catches up 
to grade level.
    In 1985, responding to parents, teachers and other child advocates, 
the Health Research Extension Act (Public Law 99-158) was passed by 
Congress and signed into law by the President. As a result of the act, 
the National Institute of Child Health and Human Development (NICHD) 
initiated a collaborative research network with multidisciplinary 
research programs to study genetics, brain pathology, developmental 
process and phonetic acquisition. NICHD has spent over $100 million to 
follow about 2,500 young children in rigorous scientific research to 
understanding not only the causes but the consequences of reading 
problems and related cognitive difficulties.
    The results are in. The bitter debate over ``whole language 
approach'' vs. ``phonetic drill approach'' need not continue.
    NICHD's results conclude that both literature and phonics practice 
are necessary for impaired and unimpaired children alike. Techniques 
for early identification of problem readers and intervention strategies 
are now known as a result of this research, but many administrators, 
teachers, tutors, and parents are not aware of the key principles of 
effective reading instruction.
    The NICHD findings underscore the need to do a better job of 
teacher training. Researchers found that fewer than 10 percent of 
teachers actually know how to teach reading to children who don't learn 
reading automatically.
    I hope the administration will include in its reading initiative 
the NICHD research findings and help ensure they are used in federally 
supported education programs.
          * * * * * * *
           AMERICA READS CHALLENGE AND NICHD RESEARCH RESULTS
    Senator Cochran. Well, we will review them very carefully.
    In connection with the administration's reading initiative, I hope 
that you will look at the results of research that was done by the 
National Institute of Child Health and Human Development. This was done 
after a bill was passed in 1985 called the Health Research Extension 
Act. It resulted in collaborative research to study genetics, brain 
pathology, developmental processes, and other matters to try to learn 
more about how young children learn to read and why some of them do 
not, why some do it better than others; $100 million has been spent on 
that research and 2,500 young children were studied in a way that no 
other research has undertaken to do.
    But anyway, the point is: techniques for early identification of 
problem readers and intervention strategies are now known as a result 
of this research, but many administrators--I would say very few--or 
teachers or parents or tutors know about these results or are aware of 
what the key principles are that were developed so that effective 
reading instruction can occur.
    I hope that any effort to push the reading initiative, again a 
subject which is very important--I hope the administration will include 
the research findings by the NICHD in any federally supported 
instruction programs that you support.
    Secretary Riley. Well, thank you, Senator, and that is a solid 
suggestion. Carol Rasco, I am told, has met with the researchers, and 
she is very much involved in that. She is heading up the America Reads 
Challenge, and she is very much into that and I will be myself. That is 
a grand suggestion.
          * * * * * * *
                                 ______
                                 

 Excerpts From the June 11, 1997 Hearing, Subcommitee on Labor, Health 
 and Human Services, and Education, and Related Agencies, Committee on 
                             Appropriations

          * * * * * * *
                   READING DEVELOPMENT AND DISORDERS
    Senator Cochran. Mr. Chairman, I appreciate your recognition of me 
again.
    When we had our hearing with Secretary Riley, Secretary of 
Education, I asked a question about a study that had been done under 
the provisions of the Health Research Extension Act at the National 
Institute for Child Health and Human Development into research 
affecting the capacity of children to learn--particularly to learn to 
read--and how this affected our efforts to provide education and 
resources for those who may be difficult to teach or have learning 
disorders of some kind or another. And it was fascinating to me that we 
have spent over $100 million on this research now, and nobody at the 
Department of Education had bothered to read the findings or to find 
out what had been learned as a result of this important research that 
we had funded and had been undertaken.
    So I had asked Dr. Duane Alexander to give us a report so we could 
put it in the record at this hearing. And I just want to point out that 
he has prepared a written response to my inquiry, which I ask that we 
put in the record.
    [The information follows:]
                   Reading Development and Disorders
    I think that it is important to point out that our intensive 
research efforts in reading development and disorders is motivated to a 
great extent by our seeing difficulties learning to read as not only an 
educational problem, but also a major public health issue. Simply put, 
if a youngster does not learn to read, he or she simply is not likely 
to make it in life. Our longitudinal studies that look at children from 
age five though their high school years have shown us how tender these 
kids are with respect to their own response to reading failure. By the 
end of the first grade, we begin to notice substantial decreases in the 
children's self-esteem, self-concept, and motivation to learn to read 
if they have not been able to master reading skills and keep up with 
their age-mates. As we follow them through elementary and middle school 
these problems compound, and in many cases very bright youngsters are 
deprived of the wonders of literature, history, science, and 
mathematics because they can not read the grade-level textbooks. By 
high school, these children's potential for entering college has 
decreased to almost nil, with few choices available to them with 
respect to occupational and vocational opportunities.
    In studying approximately 10 thousand children over the past 15 
years, we have learned the following:
    At least 20 percent, and in some states 50 to 60 percent, of 
children in the elementary grades can not read at basic levels. They 
can not read fluently and they do not understand what they read.
    However, the majority of these children--at least 90 to 95 
percent--can be brought up to average reading skills if:
  --(A) children at-risk for reading failure are identified during the 
        kindergarten and first grade years and,
  --(B) early intervention programs that combine instruction in 
        phonological awareness, phonics, and reading comprehension are 
        provided by well trained teachers. If we delay intervention 
        until nine-years-of-age (the time that most children are 
        currently identified), approximately 75 percent of the children 
        will continue to have reading difficulties through high school. 
        While older children and adults CAN be taught to read, the time 
        and expense of doing so is enormous.
    We have learned that phonological awareness--the understanding that 
words are made up of sound segments called phonemes--plays a causal 
role in reading acquisition, and that it is a good predictor because it 
is a foundational ability underlying basic reading skills.
    We have learned how to measure phonological skills as early as the 
beginning of kindergarten with tasks that take only 15 minutes to 
administer--and over the past decade we have refined these tasks so 
that we can predict with 92 percent accuracy who will have difficulties 
learning to read.
    The average cost of assessing each child during kindergarten or 
first grade with the predictive measures is between $15 to $20 
depending upon the skill level of the person conducting the assessment. 
This includes the costs of the assessment materials. If applied on a 
larger scale, these costs may be further decreased.
    We have learned that just as many girls as boys have difficulties 
learning to read. The conventional wisdom has been that many more boys 
than girls have such difficulties. Now females should have equal access 
to screening and intervention programs.
    We have begun to understand how genetics are involved in learning 
to read, and this knowledge may ultimately contribute to our prevention 
efforts through assessment of family reading histories.
    We are entering very exciting frontiers in understanding how early 
brain development can provide us a window on how reading develops. 
Likewise, we are conducting studies to help us understand how specific 
teaching methods change reading behavior and how the brain changes as 
reading develops.
    Very importantly, we continue to find that teaching approaches that 
specifically target the development of a combination of phonological 
skills, phonics skills, and reading comprehension skills in an 
integrated format are the most effective ways to improve reading 
abilities.
    At the present time, we have held several meetings with officials 
from the USDOE and have discussed how these findings can be used across 
the two agencies. As an example of this collaboration, NICHD and USDOE 
have been developing a preliminary plan to determine which scientific 
findings are ready for immediate application in the classroom and how 
to best disseminate that information to the Nation's schools and 
teachers.
                SUMMARY STATEMENT OF DR. DUANE ALEXANDER
    Senator Cochran. And I would like to ask him to make whatever 
comments that he thinks would be appropriate at this point in 
connection with that research and the need for continued funding for 
this kind of inquiry--whether there is a payoff here in terms of 
improved health and quality of life of our younger generation.
    Doctor.
    Dr. Alexander. Senator Cochran, I appreciate your interest in this 
topic. You are quite correct, over the past roughly 15 years, the 
Institute has invested, at the request of the Congress, approximately 
$100 million, studying over 10,000 children in a longitudinal way for 
their reading ability and disability.
    What we have learned about this problem that affects not just 
education, but also the public health and welfare because of the impact 
on the children and on their ability to learn to read, as evidenced by 
longer-term problems and limitation of educational opportunity, 
lifetime skills and increased behavioral and delinquency problems, is 
that approximately 20 percent of children in the elementary schools 
overall, are basically not able to read. And in some areas this ranges 
even higher--50 percent or more. We have done studies that look at this 
population, in terms of our ability to identify them and intervene.
    What we have found is that we are able to identify, by a screening 
technique in kindergarten age group, this approximately 20 to 25 
percent of children who are at high risk for a learning disability, 
particularly for learning to read. And if we are able to identify them 
at this age and intervene with a program that is based on phonologic 
awareness, teaching phonics, and understanding of written text by 
trained teachers, we are able to achieve normal reading levels in about 
90 to 95 percent of these children. This makes an enormous difference 
in their capabilities, both academically and socially as well.
    This screening test is available now. We are able to administer it 
at a cost of $15 to $20 per child, select out the population at highest 
risk, focus our intervention on them, and produce pretty impressive 
results.
    What we are trying to do now is demonstrate this on a larger scale 
in educational systems, and demonstrate whether, in fact, we can apply 
it in a broader way and show that it will be effective in a classroom 
setting.
    We have been in communication with our colleagues in the Department 
of Education about the implications of these findings, for training of 
teachers and teachers in education colleges, as well as the actual 
application in the classroom of these findings.
                       grant awards to all states
    Senator Cochran. Thank you very much, Dr. Alexander. And let me 
commend you for the excellent report and the fine work that is being 
done in this research.
          * * * * * * *
STATEMENT OF DUANE ALEXANDER, M.D., DIRECTOR, NATIONAL 
            INSTITUTE OF CHILD HEALTH AND HUMAN 
            DEVELOPMENT, NATIONAL INSTITUTES OF HEALTH, 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES
    Senator Cochran. The witnesses who are here to testify 
today are joined by the members of the National Reading Panel. 
And we appreciate very much your hard work, and your 
attendance, and your effort to make the trip to Washington 
today.
    Let us turn now to our panel of witnesses. I will introduce 
them. Dr. Duane Alexander, who is Director of the National 
Institute of Child Health and Human Development; Dr. Kent 
McGuire, Assistant Secretary of Education, Office of 
Educational Research and Improvement; and, Dr. Donald N. 
Langenberg, who is chairman of the National Reading Panel, and 
chancellor of the University System of Maryland.
    We have received copies of your statements which we will 
put in the record, and make a part of the transcript in their 
entirety. And we encourage you to proceed to summarize and make 
any additional comments that you think may be appropriate. We 
then have an opportunity, after we have heard from each of you, 
to have questions on the subject.
    Dr. Alexander, you may proceed.
    Dr. Alexander. Senator Cochran, I would like to begin by 
thanking you for your longstanding interest in this topic, and 
for your action in convening this hearing today as the forum 
for presentation to the Congress of the final report of the 
National Reading Panel.
    As you said, in November of 1997, this committee asked me 
as Director of the NICHD, to consult with the Secretary of 
Education and appoint a panel that would critically review the 
scientific literature reporting the results of research on how 
children learn to read and the effectiveness of different 
approaches to teaching reading.
    The Panel was then to report to the Congress its findings 
and its judgment as to what was so clearly effective from 
existing research evidence that it was ready for implementation 
in the classroom, and what still needed further research.
    To fulfill this directive, the staff of the NICHD and the 
Department of Education conducted a national solicitation for 
nominees to the National Reading Panel. We eliminated from 
consideration those persons who had taken strong stands 
supporting or opposing any particular approaches to teaching 
reading, and anyone with financial interest in commercial 
reading instructional materials.
    From those persons remaining, as you directed, we selected 
14 individuals, 13 of whom are here before you today; mothers 
and fathers, themselves. They also represent scientists engaged 
in reading research, psychologists, education administrators, a 
pediatrician, a teacher, a principal, and a parent of a child 
who had difficulty learning to read.
    To chair the Panel, I appointed Dr. Donald Langenberg, a 
physicist by training, with no vested interest in reading 
instruction approaches other than in his role as Chancellor of 
the University System of Maryland, which is involved in 
preparation of teachers to be effective in teaching reading. He 
skillfully led this Panel and will be presenting its report.
    The Panel first met in April of 1998. At that time, I 
charged the Panel to examine critically the research literature 
with respect to the basic processes by which children learn to 
read, and the instructional approaches used in the United 
States to teach children to learn to read, and to answer the 
following questions: What assessments have been made of the 
effectiveness of these instructional methodologies in actual 
use in helping children develop critical reading skills, and 
what conclusions can be drawn from these assessments regarding 
their effectiveness and their readiness for implementation in 
the classroom? How are teachers trained to teach children to 
read, and what do studies show about the effectiveness of this 
training? How can conclusions of the Panel be disseminated most 
effectively? And, what additional research gaps remain that 
need to be addressed?
    The Panel members took their charge very seriously and went 
about their work conscientiously and with a high degree of 
professionalism. They broke new ground in their field in 
developing the methodology for critical review and analysis of 
the research literature, and provided valuable service to the 
nation in preparing their report.
    I would like to thank the Panel members for their many 
hours of hard work in gathering and evaluating data and writing 
this report, and to thank also the graduate students, many of 
whom are here today, who worked with them on this project.
    I would also like to thank the staff of the Panel, 
particularly Dr. Bill Dommel, the Executive Director, who is 
not able to be here today, for the strong support they provided 
the Panel.
    The presentation today of the report of the Panel to you 
and to your House counterparts, as well as to Secretary of 
Education Richard Riley and Secretary of Health and Human 
Services Donna Shalala, fulfills most, but not all, of our 
charge.
    You also asked us to plan to disseminate the report 
broadly. We plan not only to disseminate it, but to work 
vigorously for its implementation. Panel members have agreed to 
continue their work to assist with this effort, so some of that 
activity will continue as well.
    Mr. Chairman, I consider this report to be one of the most 
significant and important things I have been asked to do in my 
14 years as Director of the NICHD. The significance of these 
findings for the well-being of our children and their mothers, 
their fathers, and their teachers, and the implications for the 
future literacy of this nation, and for the economic prosperity 
and global competitiveness of our people is enormous.
    Thank you for your wisdom and foresight in asking that this 
work be done, and for your confidence in assigning 
responsibility for carrying it out to the National Institute of 
Child Health and Human Development.
    Senator Cochran. Thank you very much, Dr. Alexander.
    [The statement follows:]
               Prepared Statement of Hon. Duane Alexander
    Mr. Chairman, I am Duane Alexander, Director of the National 
Institute of Child Health and Human Development at the National 
Institutes of Health. Thank you for convening this hearing as the forum 
for presentation to the Congress of the final report of the National 
Reading Panel.
    In November of 1997 this committee, as part of its report on 
appropriations for fiscal year 1998 for the Department of Health and 
Human Services, asked me, as Director of the National Institute of 
Child Health and Human Development (NICHD), to consult with the 
Secretary of Education and appoint a panel that would review the 
scientific literature reporting the results of research on how children 
learn to read and the effectiveness of various approaches to teaching 
reading. The Panel was to report to Congress its findings and its 
judgment as to what was so clearly effective from existing research 
evidence that it was ready for implementation in the classroom, and 
what still needed further research.
    To fulfill this directive, staff of the NICHD and the Department of 
Education conducted a national solicitation for nominees for this 
National Reading Panel. From over 300 persons suggested, we eliminated 
from consideration those who had taken strong stands supporting or 
opposing any particular approaches to teaching reading, and anyone with 
financial interest in commercial reading instructional materials. From 
those persons remaining, as you directed, we selected 14 individuals, 
13 of whom are here before you today. They represent scientists engaged 
in reading research, psychologists, education administrators, a 
pediatrician, a teacher, a principal, and a parent of a child who had 
experienced difficulty learning to read. To chair the panel, I 
appointed Dr. Donald Langenberg, a physicist by training, with no 
vested interest in reading instruction approaches other than in his 
role as Chancellor of the University System of Maryland, which is 
involved in preparation of teachers to be effective in teaching 
reading. He skillfully led the Panel and will be presenting its report.
    The Panel first met in April 1998. At that time I charged the Panel 
with answering the following questions:
    1. What is known about the basic process by which children learn to 
read?
    2. What are the most common instructional approaches in use in the 
United States to teach children to learn to read? What are the 
scientific underpinnings for each of these methodologic approaches, and 
what assessments have been done to validate their underlying scientific 
rationale? What conclusions about the scientific basis for these 
approaches does the Panel draw from these assessments?
    3. What assessments have been made of the effectiveness of each of 
these methodologies in actual use in helping children develop critical 
reading skills, and what conclusions does the Panel draw from these 
assessments?
    4. Based on answers to the preceding questions, what does the Panel 
conclude about the readiness for implementation in the classroom of 
these research results?
    5. How are teachers trained to teach children to read, and what do 
studies show about the effectiveness of this training? How can this 
knowledge be applied to improve this training?
    6. What practical findings from the Panel can be used immediately 
by parents, teachers, and other educational audiences to help children 
learn how to read, and how can conclusions of the Panel be disseminated 
most effectively?
    7. What important gaps remain in our knowledge of how children 
learn to read, the effectiveness of different instructional methods for 
teaching reading, and improving the preparation of teachers in reading 
instruction that could be addressed by additional research?
    The Panel members took this charge seriously and went about their 
work conscientiously and with a high degree of professionalism. They 
broke new ground in their field in developing the methodology for 
critical review and analysis of research literature, and provided 
valuable service to the nation in preparing their report. I would like 
to thank the Panel members for their many hours of hard work in 
gathering and evaluating data and writing this report, and to thank 
also the graduate students, many of whom are here today, who worked 
with them on this project. I would also like to thank the staff of the 
Panel, particularly Dr. Bill Dommel, the Executive Director, who is not 
able to be here today, for the strong support they provided for the 
Panel.
    The presentation today of the report of the Panel to you and to 
your House counterparts, as well as to Secretary of Education Richard 
Riley and Secretary of Health and Human Services Donna Shalala, 
fulfills most, but not all, of our charge. You also asked us to plan to 
disseminate this report broadly. We plan not only to disseminate it but 
to work vigorously for its implementation. Panel members have agreed to 
assist with this effort, so some of their work will continue as well.
    Mr. Chairman, I consider this report to be one of the most 
significant and important things I have been asked to do in my 14 years 
as Director of the NICHD. The significance of these findings for the 
well-being of our children and their families and teachers, and the 
implications for the future literacy of this nation and for the 
economic prosperity and global competitiveness of our people is 
enormous. Thank you for your wisdom and foresight in asking that this 
work be done, and for your confidence in assigning responsibility for 
carrying it out to the National Institute of Child Health and Human 
Development.

    Senator Cochran. Dr. McGuire.
STATEMENT OF DR. C. KENT MC GUIRE, ASSISTANT SECRETARY, 
            OFFICE OF EDUCATIONAL RESEARCH AND 
            DEVELOPMENT, DEPARTMENT OF EDUCATION
    Dr. McGuire. Mr. Chairman, thanks for the invitation to be 
here today.
    I want to join Dr. Alexander in introducing the Panel and 
its report to you. I really want to commend Duane for his 
leadership on this Panel effort. It was a long and not so 
simple effort, I know.
    The Secretary and I see this report as really very 
important. Reading, as you know, is a central priority for the 
Department of Education. We look forward to using this report 
in many ways. I would rather not get in the way of the Chair of 
the Panel, and think it is best that he get on to speaking 
about its work and its findings.
    Thank you very much.
    Senator Cochran. Thank you, Dr. McGuire, for being here and 
for helping.
    [The statement follows:]
             Prepared Statement of Dr. Hon. C. Kent McGuire
    Mr. Chairman and Members of the Subcommittee: I am pleased to be 
here today, along with Dr. Duane Alexander, the Director of the 
National Institute of Child Health and Human Development (NICHD), to 
introduce to you the members of the National Reading Panel. This panel 
was established by NICHD, in consultation with the Department of 
Education, in response to a request of the Appropriations Committees 
that accompanied our fiscal year 1998 appropriation. You asked that a 
panel be convened to assess what we know from research about how to 
teach children to read. You also wanted to know what is ready for 
application in the classroom, how that might be disseminated to 
facilitate effective reading instruction, and what additional research 
might be needed.
    Although I was not in the Department at the time the panel was 
established, I know that Department officials collaborated with NICHD 
in identifying individuals to serve on the panel. Department 
representatives participated in the initial convening of the panel, and 
staff attended many of the public meetings. Once established, the panel 
operated quite independently, with support provided by NICHD.
    Members of the panel will share with you today the highlights of 
their findings. I want to join with Dr. Alexander in commending them 
for their work. I also want to thank Duane for his leadership. During 
my tenure as Assistant Secretary, I have been particularly concerned 
with how to compile and share the knowledge gained through research so 
that it is used to improve education. This report compiles the 
knowledge; we must now communicate it to the many audiences who should 
use it.
    I believe this is an important report. It contains a great deal of 
significant, useful information. We know many things about how children 
learn to read and about some of the instructional strategies that help 
to foster certain early reading skills. This information is being used, 
but can be used much more widely, in appropriate ways, to improve early 
reading instruction for many children. Just as importantly, however, 
the report reveals that there are very critical gaps in our knowledge 
about teaching youngsters to read. If we are to help all children 
become skilled readers, we must expand what we know. We must see that 
the additional, well-designed research that is so clearly needed is 
supported.
    In this regard, the report is extremely timely for us in the Office 
of Educational Research and Improvement, and we are delighted to have 
it. Several months ago, we initiated a major planning effort to help us 
outline strategic, 10-year plans for research on improving reading and 
mathematics education and student learning in these two core areas. 
This report of the National Reading Panel, together with other reports 
such as ``Preventing Reading Difficulties in Young Children,'' will 
serve as a foundation for our planning effort in reading. The 
Department's Office of Special Education and Rehabilitative Services 
will also be using the report to aid in its planning for additional 
research, because the report contains specific recommendations on 
issues related to students with disabilities that require further 
investigation and study.
    Mr. Chairman, we look forward to continuing to work with NICHD on 
the dissemination of this report and on planning additional research so 
that we can learn even more about how to improve the reading 
achievement of our Nation's young people. In addition, we will continue 
to work together in a variety of other research endeavors, including 
our recent initiative on English language learning.
    Further, I intend to engage my colleagues in the Department of 
Education in efforts to follow up on this report. There are many ways 
that the Department can encourage both policymakers and educators to 
use the information in the report to promote and to provide better 
instruction in reading. We intend to pursue them.

    Senator Cochran. Dr. Langenberg, Chairman of the Panel, 
welcome.
STATEMENT OF DR. DONALD N. LANGENBERG, CHAIRMAN, 
            NATIONAL READING PANEL
    Dr. Langenberg. Thank you, Senator Cochran.
    I want to join my colleagues here in thanking all of those 
who have worked so hard to make this report possible today. 
But, particularly, I want to thank Dr. Alexander and his staff, 
and NICHD, who were so supportive, and who in many ways helped 
keep us on track through a long, long journey.
    It has been a real privilege for me to have served as 
chairman of this Panel over the last couple of years. I am just 
delighted that all but one of the members of the Panel are able 
to be with us today, along with many of the students that 
helped them do their work. You have my written testimony, and I 
would like to summarize just a few highlights as I see them.
    The Panel has worked tirelessly since April of 1998, a 
little longer than you had originally contemplated. And that 
was necessitated, I have to tell you, by the magnitude of the 
task that you set before us. As Dr. Alexander pointed out, the 
Panel is composed of people from a very wide variety of 
academic disciplines, and occupations in education.
    He pointed out that it included parents. I would have to 
say it includes also at least one grandparent, and you can 
probably guess which of us are grandparents and which are 
parents.
    I want to hasten to say in the interest of truth in 
advertising, that unlike most of the members of this Panel, I 
am not an expert in the teaching and learning of reading. As 
Dr. Alexander said, I am a physicist by training and by 
practice, and currently I am chancellor and chief executive 
officer of the University System of Maryland.
    But I think all of us on the Panel shared one common goal, 
and I think we share it with you, Mr. Chairman, and that is the 
goal of improving the teaching and learning of reading all 
across our country.
    Just to remind us all of what you charged us to do: You 
asked us, one, to assess the status of research-based 
knowledge, including the effectiveness of various approaches to 
teaching children to read. You asked us to report an indication 
of the readiness for application in the classroom of the 
results of this research. Is it well enough established to use 
in the classroom?
    You asked us to report, if appropriate, a strategy for 
disseminating this information to facilitate reading 
instruction in the schools. And that really needs to be the 
object here, not simply understanding how to learn and teach 
reading better, but how to get it into operation in the 
classroom so that our kids perform better.
    And finally, you recommend that if we found it warranted, a 
plan for additional research regarding early reading 
development and instruction. And I think it will surprise 
nobody that we have suggested some additional research that 
needs to be done.
    The task that you set before us is enormous for many 
reasons, but part of it is the fact that the reading literature 
is very large. It appears to include, just on educational 
research on reading, well over 100,000 studies, at least since 
1966, probably 15,000 or more published before then.
    I wish I could tell you that the Panel had read every 
single one of those studies and analyzed them, but obviously 
that was impossible. So choices had to be made by the Panel in 
how to proceed. And I would assert that it is in the wisdom of 
those choices that the success of this Panel's work lies.
    The first thing the Panel did was to identify a set of 
topics of central importance in teaching children to read. Just 
about the time we started our work, the National Research 
Council published a report called ``Preventing Reading 
Difficulties in Young Children.'' And that report was very 
helpful in helping judge what topics were the most important 
for our Panel to address.
    We began with the major topics developed or indicated in 
that report, but then we supplemented the selection with 
information we received at regional hearings that we held in 
five cities around the nation. I think altogether we probably 
heard from several hundred people, teachers, parents, school 
administrators, and others, about what our fellow citizens 
really believe is important about the teaching and learning of 
reading.
    The topics that the Panel finally settled on included 
alphabetics, and this includes phonemic awareness and phonics 
instruction; fluency; and comprehension, which includes 
vocabulary instruction as well as the comprehension of text.
    We looked at teacher education and reading instruction. And 
finally, we took a look at computer or information technology 
and what that might portend for reading instruction.
    I think the most important thing the Panel did was what it 
did next, and that was to develop a set of rigorous 
methodological standards to help them screen the research 
literature relevant to each topic. Those standards are 
essentially those normally used in medical and behavioral 
research to assess the efficacy of medications, medical 
procedures, or behavioral interventions.
    You will find the findings of each of the Panel's subgroups 
presented in detail in their reports, and they are bound into 
that rather thick document that you have. And they are all 
summarized in what we call the Report of the National Reading 
Panel. That is this fairly thin document that looks like this.
    Let me just touch on four of the highlights that are among 
those that attracted my attention.
    First, the Panel found that, in fact, certain instructional 
methods are better than others, and that many of the more 
effective methods really are ready for application in the 
classroom. For example, there was overwhelming evidence that 
systematic phonics instruction enhances children's success in 
learning to read, and that such instruction is significantly 
more effective than instruction that teaches little or no 
phonics.
    Second, the evidence clearly shows that it is wise to start 
early. Literacy instruction can and should be provided to all 
children beginning at least in kindergarten. To become good 
readers, children must develop phonemic awareness, phonic 
skills, the ability to read words in text in an accurate and 
fluent manner, and the ability to apply comprehension 
strategies consciously and deliberately as they read.
    Children at risk for reading failure, particularly, require 
direct and systematic instruction in these skills. And that 
instruction should be provided just as early as possible, and 
it ought to be integrated with the entire kindergarten 
experience in order to optimize the students' social, emotional 
development as well as educational development.
    Third, we believe that research in this critical subject 
must stand up to critical scientific scrutiny. No physician 
would normally subject a patient to a treatment or a drug whose 
efficacy had not been proven in rigorous scientific testing, 
and we should expect no less of a teacher subjecting a student 
to the curricular content or a teaching methodology. Without 
the proven, the necessary knowledge base, we can expect our 
schools to continue to be besieged by fads and nostrums.
    And finally, and most important, teachers. Teachers are 
key. Teachers must know how children learn to read. They need 
to know why some children have more difficulty in learning to 
read, and they need to know how to identify and to implement 
effective instructional approaches which may differ for 
different children. They need to learn to judge the quality of 
the research literature and use it to develop curricula and 
teaching methods based on the most scientifically rigorous 
studies.
    And to help them perform their critical role, teachers 
should be provided extensive pre-service and in-service 
training in a variety of instruction techniques. And here I 
must tell you that increasingly my colleagues in higher 
education are beginning to feel the importance and the burden 
of that responsibility.
    About the need for more research, this report is certainly 
valuable for identifying what is reliably known about early 
reading development and instruction, but I think it is equally 
valuable for identifying what we do not know and thus for what 
we need to discover through future research. As an example, 
everybody knows that information technology today is 
transforming education of all kinds and levels.
    If we have a machine at hand that can recognize speech and 
convert it to text, and vice versa, or analyze and critique 
grammar, punctuation, syntax, or interact directly with 
students in other ways, it is plausible to imagine it might be 
a useful tool in the teaching and learning of reading.
    Quite understandably given the newness of the technology, 
there is very little solid research that tests that hypothesis. 
There ought to be much more. This is a virgin and little 
explored field.
    Much of the vast reading literature consists of 
qualitative, descriptive, and correlational studies. These do 
have value. They help us to understand the general nature of a 
problem, and they help us to form scientifically testable 
hypotheses about learning mechanisms and pedagogical 
techniques.
    But correlation is not causation. We cannot separate truth 
from conjecture, or distinguish what really works from what 
might work without scientifically rigorous, experimental, or 
quasi-experimental research of the kind on which this Panel 
focused its work.
    Let me conclude with just a couple of personal 
observations. I learned an enormous amount from my fellow Panel 
members in the course of our work. It is my greatest reward for 
my work on this Panel. I love to learn, and I have to tell you 
that my perspective on this subject has changed dramatically.
    There is a recent report entitled ``Teaching Reading Is 
Rocket Science.'' I am here to tell you that is a gross 
understatement. As an experimental physicist, I spent much of 
my own career doing things much akin to rocket science, and I 
believe strongly that the teaching and learning of reading is a 
whole lot more complex and difficult than rocket science.
    Our fundamental understanding of the human brain and the 
mind it encompasses is quite rudimentary and so is our 
understanding of how to translate what we do into effective 
teaching and learning, but I am optimistic about the future.
    In my own field of physics, I am reminded of the long slow 
development of our understanding of the quantum nature of the 
universe in the early 20th Century, led by people like 
Einstein, Schrodinger, Bore, Heisenberg, and others. It took a 
century, but by the end of the 20th Century, application of 
that understanding had led directly to the information 
technology revolution that is now explosively transforming 
everything about our lives.
    And I hope, and I expect, that the 21st century, I hope the 
early 21st century, will bring us some comparable understanding 
of our own minds and how best to develop them.
    Finally, Mr. Chairman, you and your colleagues, in essence, 
asked our Panel to help save the nation from illiteracy. That 
was a pretty tall order, but I am proud of this Panel's 
response to that daunting charge. They did not come up with any 
simple silver bullet, for the simple reason that no such simple 
silver bullet exists. But they did create, I think, a landmark 
contribution to our knowledge about teaching children to read.
    And with that, Mr. Chairman, I would like to turn to a 
brief segment from a video that I think might be helpful in 
understanding the Panel's findings.
    Mr. Chairman, I would be happy to respond to your easy 
questions. If you ask difficult questions, if you do not mind, 
I would like to turn to my fellow Panel members.
    Senator Cochran. Thank you very much, Dr. Langenberg, for 
your excellent report, and your interesting presentation to our 
subcommittee.
    [The statement follows:]
               Prepared Statement of Donald N. Langenberg
    Good morning, Mr. Chairman and members of the Subcommittee. I am 
Don Langenberg. I have been privileged to serve as Chairman of the 
National Reading Panel established by the Congress. I am joined today 
by many of the members of the Panel and by some members of the Panel 
staff. These expert and accomplished individuals have worked tirelessly 
since April 1998 to respond to your charge to the Panel. They come from 
a wide variety of academic disciplines and occupations in education. 
The Panel was composed of parents and grandparents, teachers, 
professors of education and psychology, school and university 
administrators, a pediatrician, and a school principal. I myself am a 
professor of physics and the Chancellor of the thirteen-institution 
University System of Maryland. We all share a common dedication to the 
improvement of the teaching and learning of reading all across our 
nation.

                     WHAT YOU ASKED THE PANEL TO DO
    You asked the Panel to:
  --Assess the status of research-based knowledge, including the 
        effectiveness of various approaches to teaching children to 
        read.
  --Report an indication of the readiness for application in the 
        classroom of the results of this research.
  --Report, if appropriate, a strategy for rapidly disseminating this 
        information to facilitate effective reading instruction in 
        schools.
  --Recommend, if found warranted, a plan for additional research 
        regarding early reading development and instruction.
    The task you set for the Panel is a monumental task! The research 
literature on reading includes over 100,000 studies published since 
1966, and an additional 15,000 or so published before that. I wish I 
could tell you that the Panel members have read and analyzed every 
single one of those studies, but I can't, because they couldn't 
possibly have done so. Choices had to be made about what the Panel did, 
and how it did it. It is in the wisdom of those choices that the 
success of the Panel's work lies. Let me now describe them to you.

                           WHAT THE PANEL DID
    The Panel began by identifying a set of topics that are of central 
importance in teaching children to read. It was aided in this selection 
by a report of the National Research Council, ``Preventing Reading 
Difficulties in Young Children,'' published at about the time the Panel 
began its work. It refined its selection using information from 
regional public hearings held by the Panel in five major cities across 
the country.
    The final topics the Panel studied intensively were:
  --Alphabetics, including phonemic awareness instruction and phonics 
        instruction.
  --Fluency
  --Comprehension, including vocabulary instruction, text comprehension 
        instruction, and teacher preparation and comprehension 
        strategies instruction.
  --Teacher education and reading instruction.
  --Computer technology and reading instruction.
    Then, in what may be the Panel's most important action, it 
developed and adopted a set of rigorous methodological standards. These 
standards are essentially the standards normally used in medical and 
behavioral research to assess the efficacy of behavioral interventions, 
medications or medical procedures. They guided the Panel's screening of 
the research literature relevant to each topic. This process identified 
a set of experimental or quasi-experimental research studies that were 
then subjected to detailed analysis by subgroups of the Panel members. 
I also want to point out that the Panel carried out its deliberations 
and discussions in public to ensure that all citizens could observe the 
proceedings and provide input to the Panel at each of their meetings.

                          WHAT THE PANEL FOUND
    The findings of the Panel's subgroups are presented in detail in 
their reports and are summarized in the ``Report of the National 
Reading Panel.'' Let me touch on just a few highlights.
    The Panel found that certain instructional methods are better than 
others, and that many of the more effective methods are ready for 
implementation in the classroom. To become good readers, children must 
develop phonemic awareness, phonics skills, the ability to read words 
in text in an accurate and fluent manner, and the ability to apply 
comprehension strategies consciously and deliberately as they read.
    Phonemic awareness is knowledge that spoken words are made up of 
tiny segments of sound, referred to as phonemes. For example, the words 
``go'' and ``she'' each consists of two phonemes. Phonemic awareness is 
often confused with phonics, which refers to the process of linking 
these sounds to the symbols that stand for them, the letters of the 
alphabet. Phonemic awareness is critically important in learning how to 
read because children cannot pronounce unfamiliar words if they do not 
know the sounds that link to the letters on the page. In fact, the 
Panel found that many difficulties learning to read were caused by 
inadequate awareness and that systematic and explicit instruction in 
phonemic awareness directly caused improvements in children's reading 
and spelling skills. The evidence for these casual claims is so clear 
cut that the Panel concluded that systematic and explicit instruction 
in phonemic awareness should be an important component of classroom 
reading instruction for children in preschool and beyond who have not 
been taught phoneme concepts or who have difficulties understanding 
that the words in oral language are composed of smaller speech sounds--
sounds that will be linked to the letters of the alphabet. Importantly, 
the Panel found that even preschool children responded well to 
instruction in phonemic awareness when the instruction was presented in 
an age-appropriate and entertaining manner.
    The Panel also concluded that the research literature provides 
solid evidence that phonics instruction produces significant benefits 
for children from kindergarten through 6th grade and for children 
having difficulty learning to read. The greatest improvements were seen 
from systematic phonics instruction. This type of phonics instruction 
consists of teaching a planned sequence of phonics elements, rather 
than highlighting elements as they happen to appear in a text. Here 
again, the evidence was so strong that the Panel concluded that 
systematic phonics instruction is appropriate for routine classroom 
instruction. The Panel noted that, because children vary in reading 
ability and vary in the skills they bring to the classroom, no single 
approach to teaching phonics could be used in all cases. For this 
reason, it is important to train teachers in the different kinds of 
approaches to teaching phonics and in how to tailor these approaches to 
particular groups of students.
    Children at risk of reading failure especially require direct and 
systematic instruction in these skills, and that instruction should be 
provided as early as possible. Children in kindergarten and in the 
first grade respond well to instruction in phonemic awareness and 
phonics, provided the instruction is delivered in a vibrant, 
imaginative, and entertaining fashion. Children who experience early 
difficulty in reading respond well to phonics instruction through the 
late elementary school years.
    The Panel also concluded that guided oral reading has been clearly 
documented by research to be important for developing reading fluency--
the ability to read with efficiency and ease. In guided oral reading, 
students read out loud, to a parent, teacher or other student, who 
corrects their mistakes and provides them with other feedback. 
Specifically, guided oral reading helped students across a wide range 
of grade levels to learn to recognize new words, helped them to read 
accurately and easily, and helped them to comprehend what they read.
    By contrast, the Panel was unable to determine from the research 
whether reading silently to oneself helped to improve reading fluency. 
Although it makes sense that silent reading would lead to improvements 
in fluency, and the Panel members did not discourage the practice, 
sufficient research to conclusively prove this assumption has not been 
conducted. Literally hundreds of studies have shown that the best 
readers read silently to themselves more frequently than do poor 
readers. However, these studies cannot distinguish whether independent 
silent reading improves reading skills or that good readers simply 
prefer to read silently to themselves more than do poor readers. The 
Panel concluded that if silent reading is used in the classroom as a 
method intended to develop reading skills and fluency, it should be 
combined with other types of reading instruction, such as guided oral 
reading. The Panel also recommends that substantial additional research 
be conducted on the effectiveness of silent independent reading and 
other instructional procedures to enhance fluency and the ability to 
read with proper expression.
    To determine how children best learn to comprehend what they read, 
the Panel reviewed studies of three areas regarded as essential to 
developing reading comprehension: vocabulary development, text 
comprehension instruction, and teacher preparation and comprehension 
strategies instruction.
    Although the best method or combination of methods for teaching 
vocabulary has not yet been identified, the Panel review uncovered 
several important implications for teaching reading. First, vocabulary 
should be taught both directly--apart from a larger narrative or text--
and indirectly--as words are encountered in a larger text. Repetition 
and multiple exposure to vocabulary words will also assist vocabulary 
development, as will the use of computer technology. The Panel 
emphasized that instructors should not rely on single methods for 
teaching vocabulary, but on a combination of methods.
    Likewise, the Panel also found that reading comprehension of text 
is best facilitated by teaching students a variety of techniques and 
systematic strategies to assist in recall of information, question 
generation, and summarizing of information. The Panel also found that 
teachers must be provided with appropriate and intensive training to 
ensure that they know when and how to teach specific strategies.
    With respect to the overall preparation of teachers, the Panel 
noted that existing studies showed that training both new and 
established teachers generally produced higher student achievement, but 
the research in this area is woefully inadequate to draw clear 
conclusions about what makes training most effective. More quality 
research on teacher training is one of the major research needs 
identified by the Panel.
    Finally, the Panel examined the use of computer technology to teach 
reading. The Panel noted that there are too few definitive studies to 
draw firm conclusions, but that the available information suggests that 
it is possible to use computer technology to improve reading 
instruction. For example, the use of computers as word processors may 
help students learn to read, as reading instruction is most effective 
when combined with writing instruction.
    Teachers are key! They must know how children learn to read, why 
some children have difficulty learning to read, and how to identify and 
implement instructional approaches of proven efficacy for different 
children. They must know how to judge the quality of the reading 
research literature and to use it to develop curricula and teaching 
methods based on the soundest and most scientifically rigorous studies. 
Literacy instruction can and should be provided to all children 
beginning in kindergarten. In doing so, teachers must understand that 
such instruction should be integrated with the entire kindergarten 
experience in order to optimize their students' social and emotional 
development.

                          GETTING THE WORD OUT
    The Panel's staff has developed a comprehensive strategy to 
disseminate its findings. The Panel's report and an accompanying 
interpretive and illustrative video tape will be provided to every 
member of Congress, to all governors and state departments of 
education, to all libraries, to all of the nation's major education and 
teacher organizations, and to the news media. Communication materials 
summarizing the major elements of our report will be developed to suit 
the specific needs of different audiences, including parents, teachers, 
school administrators, and policy makers. A speakers' bureau is being 
formed that will send teams--which may include Panel members--to 
present the Panel's findings and determinations to states and to local 
school districts. These teams will be prepared to provide teachers with 
specific examples and activities to help them apply these findings and 
determinations in their classrooms. A Reading Education Summit to 
provide a national forum on the findings and determinations of the 
Panel for leaders of colleges and universities that prepare future 
teachers and enhance the skills of current teachers is also being 
discussed.

                            FUTURE RESEARCH
    The Report of the National Reading Panel is certainly valuable for 
the information it contains about what is reliably known about early 
reading development and instruction. The Report is also valuable for 
what it says about what we do not know, and thus for what we need to 
discover through future research. Let me mention just two examples 
among many.
    The reading research literature is huge. Much of it, however, 
consists of qualitative, descriptive, and correlational studies. Such 
studies do have value. They can help us to understand the general 
nature of a problem and to form scientifically testable hypotheses 
about learning mechanisms and pedagogical techniques. But correlation 
is not causation! We cannot separate truth from conjecture, or 
distinguish what really does work from what might work, without 
scientifically rigorous experimental or quasi-experimental research of 
the kind on which the Panel focussed its work. Too little such research 
has been done, and we need more of it. No physician would normally 
subject a patient to a treatment or a drug whose efficacy had not been 
proven in rigorous scientific testing. We should expect no less of a 
teacher subjecting a student to curricular content or a teaching 
methodology. Until we develop the necessary knowledge base, we can 
expect our schools to continue to be besieged by education fads and 
nostrums.
    Today, information technology is transforming education of all 
kinds and at all levels. If we have a machine that can recognize speech 
and convert it to text--and vice versa, or analyze and critique 
grammar, punctuation, and syntax, or interact with students in other 
ways, it is plausible to imagine that it might be a useful tool in the 
teaching and learning of reading. Understandably, given the newness of 
the technology, there is very little solid research that tests that 
hypothesis. There ought to be more--much more--in this virgin and 
little-explored field.

                           FINAL OBSERVATIONS
    Let me conclude with a couple of personal observations.
    I have learned a great deal from my fellow Panel members in the 
course of our work. They have given me a new perspective on our 
subject. There is a recent report entitled ``Teaching Reading Is Rocket 
Science.'' I think that is a gross underestimate. I spent my career as 
an experimental physicist doing things akin to rocket science. I now 
believe that the teaching and learning of reading is much more complex 
and difficult. Our fundamental understanding of the human brain and the 
mind it embodies is quite rudimentary. So is our understanding of how 
to translate what we do know into effective teaching and learning. But 
I am optimistic about the future. I am reminded of the long, slow 
development of our understanding of the quantum nature of the universe 
in the early twentieth century, led by Einstein, Bohr, Schroedinger, 
Heisenberg, and others. By the end of the twentieth century, 
application of that understanding had led to the information technology 
revolution that is now explosively transforming our world and our 
lives. I hope and expect that the twenty-first century will bring us a 
comparable understanding of our own minds and of how best to develop 
them. Let us all do what we can to make that happen.
    Finally, Mr. Chairman, you and your colleagues, in essence, asked 
our Panel to help save our nation from illiteracy. I am proud of the 
way in which this Panel has responded to your daunting charge. This 
diverse group of individuals, working together, developed a set of 
scientific criteria and, for the first time, used them to assess the 
quality and rigor of research on reading instruction. They identified 
instructional approaches that are demonstrably effective in teaching 
reading skills to a wide range of children. They did this in a public 
forum in a politically charged environment. They did not come up with 
any simple ``silver bullet''--because none exists. But they did create, 
I believe, a landmark contribution to our knowledge about teaching 
children to read.
    Now, I would be pleased to respond to your questions--your easy 
questions. I hope you will permit me to refer your hard questions to 
the real experts of the Panel who are with me today.

    Senator Cochran. Let me first turn to Dr. Alexander and ask 
him a question about dissemination. How are you going to get 
the information about effective ways to teach reading to 
schools and teachers so that the information is actually used 
in the classrooms?
    Dr. Alexander. The dissemination effort actually begins 
today, Senator Cochran. Each of your 534 colleagues will 
receive a copy of the report of the Panel, with the full video 
tape, in their offices today.
    We are having a press conference later this morning where 
we will interact with members of the media and present the 
findings of the report for their assistance in disseminating 
the report.
    We also will continue to use our Panel members to present 
the report at national conferences, meetings, and conventions. 
And, in addition to a speakers bureau, we will organize 
workshops and training programs at various places around the 
country, at school boards, in-service programs for teachers, 
teacher preparation at colleges, et cetera.
    We will interact with the National Education Association, 
the American Federation of Teachers, the PTAs, and other 
organizations in making this information available and using 
their skills and outlets as a way of disseminating the report, 
along with many other organizations of similar nature.
    The American Library Association is working with us. All 
American libraries will receive copies of this report. They not 
only will stock it, but will also be implementing its 
recommendations in their interactions with pre-school children 
in their reading programs and books that they read to kids in 
their programs at the libraries.
    Copies of the report will go to Governors, to State boards 
of education, to all colleges of education. And we will also be 
working with the Department of Education--we have a meeting 
scheduled for next week--to talk about joint activities and 
further dissemination and implementation of this report. We 
intend to be very pro-active in getting this information out.
    Senator Cochran. Thank you very much.
    Dr. Langenberg, how did the Panel decide on the research 
review methods that were used in doing its work?
    Dr. Langenberg. Well, as I said, the methodology that the 
Panel used to identify the studies they would examine most 
carefully was essentially a methodology that was scientific, 
experimental, or at least quasi-experimental, of the kind that 
in medicine I would call a clinical field trial or a randomized 
field test.
    And then they went through the literature and identified 
those papers that were in English, published in a peer reviewed 
journal, and had relevance to the topic at hand. Then from that 
set, they screened out those studies that, in fact, met the 
firm methodological standards that they had developed and 
thoroughly analyzed each one of those papers and its results, 
coded the results, and used formal statistical procedures, 
where possible, to analyze the results.
    Senator Cochran. Do you think that the failure to use 
qualitative or descriptive research and concentrating only on 
quantitative things that could be measured on a scientific 
basis is a deficiency or a shortcoming of this report? Would 
there have been a more comprehensive analysis if it had gone 
beyond assessing quantitative research?
    Dr. Langenberg. Well, my own view is that there would have 
been value in going beyond to that enormous part of the body of 
research literature that is qualitative, but we had to draw the 
line somewhere.
    And the fact is that in our view, if you are looking for 
the answer to the question, ``What do we know reliably actually 
works?'', you have got to do that by following strict 
scientific methodological rules.
    There is an old poster that used to be on the walls at the 
old National Bureau of Standards that used to say, and this is 
one of my favorite sayings, ``If you cannot measure it, you 
cannot make it because if you cannot measure it, you cannot 
tell whether you have got it made.''
    Senator Cochran. You observed that there was some of us who 
obviously were older than others. One experience that we had 
was getting to watch Dragnet on television a lot.
    Dr. Langenberg. Yes, I remember that.
    Senator Cochran. And Sergeant Friday would say, ``I just 
want the facts, ma'am. Just the facts.'' And I suppose that is 
another way of saying that this Panel wanted the facts, and 
wanted facts that were supported by evidence.
    Dr. Langenberg. That is right.
    Senator Cochran. And that is what you did.
    Dr. Langenberg. That is exactly right.
    Senator Cochran. Were you able to compare the effectiveness 
of studies that taught beginning reading skills using explicit 
instructional approaches and whole language approaches?
    Dr. Langenberg. That is a question that I would be more 
comfortable turning to one of my Panel members, if I may.
    Would any of you like to take a shot at it? Sally?
    Senator Cochran. Why not come up and sit here? There is a 
microphone there.
    Dr. Langenberg. This is Dr. Sally Shaywitz. She is the 
physician on the Panel, but also a very distinguished learning 
and neuroscience researcher.
    Dr. Shaywitz. Good morning. To address your question, one 
of the really outstanding features of the process that the 
Panel used to do its work was to develop a methodology, a 
process by which individual studies were analyzed and coded so 
that we could determine what specific procedures were used to 
teach in a particular way.
    So we were able to compare procedures that focused on 
teaching in a systematic explicit manner. We could compare 
approaches that used a more implicit or embedded phonics 
approach. And we can compare procedures that were more 
implicit, often referred to as whole language.
    So using that very specific methodology, we were able to 
make a very strong determination that methods that focused on 
systematic explicit synthetic phonics and phonemic awareness, 
produced the greatest effectiveness in teaching children to 
read.
    We were also able to determine, for example, that in 
teaching fluency those methods that focused on having children 
repeatedly read orally, and very importantly having the 
explicit feedback of their teachers, were the most successful 
in teaching fluency.
    So I am happy to say we do have a very strong response and 
a very positive response about what works in teaching children 
to read.
    Senator Cochran. Did teaching children about phonemic 
awareness and phonics help them read better?
    Dr. Shaywitz. Yes, it did. It helped their phonemic 
awareness and their phonics, but most importantly, it helped 
their reading. It also helped their spelling; it helped their 
reading comprehension. So this was very important. And it 
helped all types of children at different stages and in 
different ages.
    Senator Cochran. You had a lot of research to review. And 
the reports of those findings, I know, are voluminous, and you 
could not, as you say, read everything. What could you say 
about the quality of the research that was reviewed?
    Dr. Shaywitz. Well, if I may answer that: I think, in 
general, it is very fair to say that we have a lot of work to 
do to improve the quality of research in reading.
    As in any scientific domain or discipline, the quality of 
individual studies will vary, but in general and overall, 
studies in education and, in particular, studies in reading, 
have not had the kind of scientific rigor or the collection and 
analysis of objective data, or a formal test of hypothesis that 
we have in other types of research. And this type of research 
has not been emphasized in either education or reading research 
over the last several years.
    But on a more positive note, as a result of this extensive 
and comprehensive process, we now know what areas need more 
work, where we need more research, and what types of research 
are needed in these specific areas.
    Senator Cochran. Do you think that you have been able to 
identify criteria for reviewing existing qualitative research 
so that you could make judgments about the quality of existing 
qualitative research?
    Dr. Shaywitz. That is a really important and critical 
question, and the Panel actually has made a very strong 
recommendation for future research evaluations, and that is we 
need to be able to spend the time, and the resources necessary 
to first, develop specific research criteria, to apply them in 
a systematic manner, and in an open forum, just the same as has 
been done now for quantitative research.
    So once that is accomplished, fulfilling all of these 
criteria, we would be in a better position to really understand 
how to implement solid scientific research, and integrate all 
types of research.
    Senator Cochran. Has your Panel report taught us anything 
about how to apply the findings of research to teacher 
preparation and teaching of our children?
    Dr. Shaywitz. Well, I think we have a great deal to learn 
about how best to apply the solid research findings to 
instructional practices, and really, we need to get up to a new 
level in our understanding of instructional practices, and how 
they can be implemented in the complex educational settings 
that our classrooms represent.
    And furthermore, I think what we have learned is that--what 
is very critical is that the selection and application of 
instructional practices must be preceded by actual evaluation 
in a scientific and objective way of the assumptions that those 
instructional practices are based on, as well as a formal 
testing of the effectiveness of these particular instructional 
practices for different children at different stages of 
development.
    And I think it is really important to note that the content 
of the majority of reading materials that our teachers use to 
inform their instructional practices, have not gone through a 
formal test of the assumptions that these practices are based 
on, nor have they gone through a formal test of whether they 
are effective or not. So I think there is a lot of work that we 
have to do.
    Dr. Langenberg. If I could just add to that, Mr. Chairman: 
Now on my role as a grandparent, we all have a feeling that 
because we have been educated, we all know how education should 
be done. And that is one of the most complicating factors in 
trying to do what we are trying to do.
    Our schools, as I suggested, are beset with all sorts of 
fads, nostrums, advice, direction from all sorts of sectors. 
And one of our most important tasks, I think, is somehow to get 
imbedded in the culture of education, embedded in the training 
of our teachers, the notion that what you want to focus on is 
what has been proven to work. And we have to somehow establish 
ways to support our teachers in doing that.
    Senator Cochran. Do you have an additional comment to this?
    Dr. Shaywitz. Yes, I do. I guess as the only pediatrician 
or medical person here aside from Dr. Alexander, I just want to 
say what a landmark event this is. You know, it used to be that 
what we knew about reading was sort of in the background and we 
would think that we know so much about medical disorders.
    But I think that with this report, with this evidence-based 
report, what we know about reading and how we can determine 
what best works for reading, has come into the front. It makes 
me aware that there are so many areas now in education where I 
wish we could apply the same rigorous process and really have 
an evidence-based set of body of evidence to determine what 
works best.
    So I think we all should be very proud and very much 
looking forward to the implementation of this report. This is a 
giant step forward, not only in education, but I think for any 
condition that affects the health and well-being of our 
children.
    Senator Cochran. If there were two surprises that I found 
in reading the executive summary, the smaller version, here it 
was, first, the enormous amount of research and reporting and 
conclusions that had already been reached by a lot of 
researchers in various aspects of this subject; and secondly, 
how much additional research this Panel recommends still needs 
to be done.
    I am almost stunned by the final words in one section, page 
19, under the topic, ``Next Steps.'' I was reading that this 
morning, and I had to read it twice because I am not sure I 
understand the technical implications of the words that are 
being used. I needed some vocabulary training before I read 
this section of the report. And maybe the general audience out 
there, if there is anybody who is a member of the general 
public here today, will sympathize with my problem.
    The first next step was this, ``Where possible, there 
should be meta-analyses of existing experimental or quasi-
experimental research and topic areas not addressed by the 
NRP.'' I do not know what a meta-analyses is, to start with. I 
have to figure that out.
    Then, ``Additional experimental research should be 
conducted on questions unanswered by the Panel's analyses of 
the topics it did cover.'' That is clear.
    ``There should be an exhaustive and objective analysis of 
correlational, descriptive, and qualitative studies relevant to 
reading development and reading instruction that is carried out 
with methodological rigor following pre-established criteria.'' 
That is a little difficult for me to get wrapped around and 
understand.
    But I am just challenging the Panel also maybe to have a 
simplified listing of next steps that even ordinary mortals can 
understand.
    I can understand the fourth one. ``Experimental research 
should be initiated to test those hypotheses derived from 
existing correlational, descriptive, and qualitative research 
meeting high methodological standards.'' But I am afraid that 
some of this may stun the ordinary person who may have to read 
this.
    If you are going to send it to Members of Congress, for 
example, they might stumble over that and try to figure out 
what they are supposed to do next. But I think what we are all 
supposed to do next is help you advertise what you have found, 
and what you recommend, because I agree with your conclusions 
that this is an important area for additional research.
    This is an important area where we can translate the things 
you have learned into new instructional methods in the 
classrooms of our country, and that we ought to start right 
now. You have learned enough so that you can provide important, 
helpful advice to educators around the country.
    I am not one to say that Congress ought to write the 
reading curriculum for all the schools, though. And you will 
notice that in the legislation, and in the report, and in 
comments that I have made today, it has been an urging that 
educators take advantage of this information to translate that 
into new methods in the classroom, to improve the teaching and 
learning of reading in American schools.
    Congress ought not to write a new law telling everybody how 
to do it. We would probably mess it up so bad it would be a 
disservice rather than an improvement to our educational system 
in the country. So I have a bias there, you will have to 
understand.
    So I am not asking either in the additional follow-up work 
that is going to be done that you tell Congress what it ought 
to do, necessarily, but rather tell the educational community 
how it can take the lead in providing better studies, better 
teaching methods in the schools of the country.
    Well, I did not come here to make a speech either, that is 
for sure. I came to receive a report. Thank you all for your 
very hard work and your very effective work in carrying out the 
wishes of this subcommittee.
    It did take a little longer than we thought. You will 
notice by the original language, I think 9 months or something 
was given. That showed you how little we knew about it, too, 
and how much easier we thought it would be than it turned out 
to be. You all have done a great job. I have taken up too much 
time talking.
    Dr. Langenberg. Thank you, Mr. Chairman.

                         CONCLUSION OF HEARING

    Senator Cochran. Thank you all very much for being here, 
that concludes our hearing. The subcommittee will stand in 
recess subject to the call of the Chair.
    [Whereupon, at 10:58 a.m., Thursday, April 13, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
